Roderick and Solange MacArthur Justice Center
777 6th Street NW, 11th Floor
Washington, DC 20001

Amir H. Ali
Deputy Director
Supreme Court & Appellate Program

macarthurjusticecenter.org

amir.ali@macarthurjustice.org
O 202 869 3434
F 202 869 3435

July 29, 2020
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Phipps v. Idaho, Case No. 19-1309
Dear Mr. Harris,
Respondent filed its brief in opposition to certiorari in the above-captioned case
on July 23, 2020. The first distribution date for paid petitions following the 14-day
grace-period is August 12, 2020.
Pursuant to the Court’s March 19, 2020 order, Petitioner respectfully requests
that the Court delay distribution of this petition by 14 days, until the Court’s August
26, 2020 distribution date. Petitioner requests this additional time to file a certiorari
reply based on substantial disturbances caused by the COVID-19 outbreak. This
request will not affect the Court’s conference date; the case will remain scheduled for
the September 29, 2020, conference.
Respondent does not oppose this request.
Very truly yours,

Amir H. Ali
Counsel for Petitioner

cc: Kenneth K. Jorgensen, Counsel for Respondent

